                  U.S. ELECTION ASSISTANCE
                         COMMISSION
                OFFICE OF INSPECTOR GENERAL




                           FINAL REPORT:

                ADMINISTRATION OF HELP AMERICA
                VOTE ACT FUNDS BY THE MARYLAND
                   STATE BOARD OF ELECTIONS
                   MAY 1, 2003 THROUGH DECEMBER 31, 2005




Report No.
E-HP-MD-08-06
June 2007
                          U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                 1225 New York Ave. NW - Suite 1100
                                        Washington, DC 20005


                                                                                June 5, 2007

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis Crider
           Inspector General

Subject:   Final Audit Report on the Administration of Help America Vote Act Funds by
           the Maryland State Board of Elections (Assignment No. E-HP-MD-08-06)

        This report presents the results of the subject audit. The objectives of the audit
were to determine whether Maryland (1) expended Help America Vote Act (HAVA)
payments in accordance with HAVA and related administrative requirements and (2)
complied with the HAVA requirements for replacing punch card or lever voting
machines, for appropriating a 5 percent match for requirements payments, for
establishing an election fund, and for maintaining state expenditures for elections at a
level not less than expended in fiscal year 2000.

        The report concluded that Maryland generally complied with requirements and
identified the following areas needing management attention:

        9 Reporting of Costs - Maryland included the same expenditures totaling
          $250,554 in its annual financial reports for both HAVA Section 101 and
          Section 251 programs.

        9 Accounting for Costs - Maryland did not separately account for costs incurred
          under HAVA Sections 101, 102, and 251 as required by the Uniform
          Administrative Requirements for Grants and Cooperative Agreements with
          State and Local Governments.

        9 Accounting for Equipment - Maryland did not maintain a comprehensive
          equipment managements system or have written policies and procedures to
          ensure that property acquired with HAVA funds was inventoried and properly
          controlled.

        9 Use of Funds - Maryland used a portion of Section 251 requirements
          payments for activities related to improving the administration of elections for
          Federal office, such as storing and transporting voting equipment. Such use of
           funds is permissible but only if the state submits one of two certifications to
           the Election Assistance Commission.

       Maryland’s response to the audit (Appendix 3) indicates that corrective action has
been completed or is in process for all areas.

        Please provide us with your written response to the recommendations included in
this report by August 6, 2007. Your response should contain information on actions
taken or planned, including target dates and titles of EAC officials responsible for
implementing the recommendations

       Section 5(a) of the Inspector General Act (5 U.S.C. § App.3) requires the Office
of Inspector General to list this report in its semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.




                                             2
               BACKGROUND

               The Help America Vote Act of 2002 (HAVA or the Act) created the
HELP AMERICA   U.S. Election Assistance Commission (EAC or Commission) to assist
VOTE ACT       states and insular areas with the improvement of the administration of
               Federal elections and to provide funds to states to help implement
               these improvements. HAVA authorizes payments to states under Titles
               I and II, as follows:

                   9 Title I, Section 101 payments are for activities such as
                     complying with Title III of HAVA for uniform and
                     nondiscriminatory election technology and administration
                     requirements, improving the administration of elections for
                     Federal office, educating voters, training election officials and
                     poll workers, and developing a state plan for requirements
                     payments.

                   9 Title I, Section 102 payments are available only for the
                     replacement of punchcard and lever action voting systems.

                   9 Title II, Section 251 requirements payments are for complying
                     with Title III requirements for voting system equipment; and
                     for addressing provisional voting, voting information, statewide
                     voter registration lists, and voters who register by mail.

               Title II also requires that states must:

                   9 Have appropriated funds “equal to 5 percent of the total amount
                     to be spent for such activities [activities for which requirements
                     payments are made].” (Section 253(b)(5)).

                   9 “Maintain the expenditures of the State for activities funded by
                     the [requirements] payment at a level that is not less than the
                     level of such expenditures maintained by the State for the fiscal
                     year ending prior to November 2000.” (Section 254 (a)(7)).

                   9 Establish an election fund for amounts appropriated by the state
                     “for carrying out the activities for which the requirements
                     payment is made,” for the Federal requirements payments
                     received, for “such other amounts as may be appropriated under
                     law,” and for “interest earned on deposits of the fund.” (Section
                     254 (b)(1)).




                                       3
                        HAVA funds received and expended by Maryland are as follows:
FUNDING FOR
MARYLAND                     TYPE OF             AMOUNT                   OUTLAYS
                             PAYMENT            RECEIVED             AMOUNT       AS OF

                             101                   $5,636,731          $1,114,563      12/31/05
                             102                    1,637,609           1,637,609      12/31/05
                             251                   42,478,430          24,931,033      12/31/05

                             Totals               $49,752,770        $27,683,205


                        Within the State of Maryland, HAVA programs are principally
FINANCIAL               administered by the State Board of Elections (SBE). To account for
MANAGEMENT              the HAVA payments, the Act requires recipients to maintain records
REQUIREMENTS            that are consistent with sound accounting principles, that fully disclose
                        the amount and disposition of the payments, that identify project costs
                        financed with the payments and with other sources, and that will
                        facilitate an effective audit.

                        In addition, the Commission notified states of other management
                        requirements. Specifically, that states must:

                             9 Comply with the Uniform Administrative Requirements for
                               Grants and Cooperative Agreements with State and Local
                               Governments (also known as the “Common Rule”). 1

                             9 Expend payments in accordance with cost principles for
                               establishing the allowability or unallowability of certain items
                               of cost for federal participation issued by the Office of
                               Management and Budget (OMB) in Circular A-87.

                             9 Submit annual financial reports on the use of Title I and Title II
                               payments.




1
  Our audit cites the Uniform Administrative Requirements for Grants and Cooperative Agreements with
States and Local Governments promulgated by the U.S. General Services Administration (GSA) in Section
41 of the Code of Federal Regulations (CFR), Part 105 – 71. We use this citation because GSA disbursed
the HAVA funds on behalf of EAC and because the EAC was not authorized to issue regulations.



                                                  4
            The objectives of our audit were to determine whether Maryland (1)
OBJECTIVE   expended HAVA payments in accordance with the Act and related
            administrative requirements and (2) complied with the HAVA
            requirements for replacing punch card or lever voting machines, for
            establishing an election fund, for appropriating a 5 percent match for
            requirements payments, and for maintaining state expenditures for
            elections at a level not less than expended in fiscal year 2000.
            Specifically, we audited expenditures from May 1, 2003 through
            December 31, 2005, and reviewed controls to assess their adequacy
            over the expenditure of HAVA funds. We also evaluated compliance
            with certain HAVA requirements for the following activities:

               9 Accumulating financial information reported to EAC on the
                 Financial Status Reports (Standard Forms number 269).
               9 Accounting for property.
               9 Purchasing goods and services.
               9 Accounting for salaries.
               9 Charging indirect costs.
               9 Spending by counties.

            We also determined whether Maryland had complied with the
            requirements in HAVA applicable to Section 251 requirements
            payments for:

               9 Establishing and maintaining the election fund.
               9 Sustaining the State’s level of expenditures for elections.
               9 Appropriating funds equal to five percent of the amount
                 necessary for carrying out activities financed with Section 251
                 requirements payments.



            RESULTS OF AUDIT

            We concluded that Maryland properly established the State election
SUMMARY     fund, sustained the appropriate level of State expenditures for
            elections, and satisfied the 5 percent matching requirement for Section
            251 funds. In addition, we found that Maryland needed to adjust its
            annual financial reports for expenditures of $250,554 that it reported
            under both Sections 251 and 101, improve accounting for HAVA-
            funded expenditures and equipment, and submit a certification to EAC
            regarding its use of a portion of its Section 251 funds for improving the
            administration of elections for Federal office.




                                   5
               Duplicate Costs. Maryland reported costs of $250,554 twice - once as
QUESTIONED     an expenditure of 101 funds and again as an expenditure of 251 funds.
COSTS          The costs represent payments to BSC Systems, Inc. for acceptance
               testing. Although Maryland paid BSC Systems only once, it reported
               the payments as expenditures under both Sections 101 and 251. As a
               result, we classified costs of $250,554 as questioned.

               Recommendation:
                   1. We recommend that the EAC resolve the questioned costs.

               SBE Response:

               SBE advised that it had “submitted corrected annual financial report
               for its Section 101 and 251 funds and has cleared up any reporting
               errors.”

               OIG Comments:

               We reviewed the revised reports and supporting information and
               determined that the State made proper adjustments to eliminate the
               duplicate costs. No further action is required.

               The SBE did not separately account for costs incurred under Sections
ACCOUNTING     101, 102, and 251 of the HAVA. Instead, SBE established two
FOR            Program Cost Account (PCAs) codes in the State’s accounting system
EXPENDITURES   to track HAVA funds, one for voter registration information
               technology costs and one for everything else. Because the PCAs did
               not correspond to the three HAVA sections, SBE had to extract
               transaction detail from the accounting system to report outlays on the
               Financial Status Reports (SF-269) submitted to the EAC for each of
               the three HAVA sections.

               Part 41 CFR 105–71.120, Standards for financial management
               systems, (a) requires that: “Fiscal control and accounting procedures
               of the State, as well as its subgrantees and cost-type contractors, must
               be sufficient to—

                       (1) Permit preparation of reports required by this part and the
               statutes authorizing the grant, and
                       (2) Permit the tracing of funds to a level of expenditures
               adequate to establish that such funds have not been used in violation of
               the restrictions and prohibitions of applicable statutes.”

               Further, Maryland’s Accounting Procedures Manual requires State
               agencies to establish an effective system of internal controls to ensure



                                      6
             there is “adequate support for all billings and financial status reports
             sent to the Federal government.” SBE personnel, however, did not
             establish the accounting procedures to facilitate the preparation of SF-
             269 reports and allow the tracing of reported amounts to supporting
             documentation.
             Recommendations:
             We recommend that EAC require SBE:
                 2. To establish accounting records for HAVA Sections 101, 102,
                    and 251 funds in accordance with requirements.
             SBE Response:
             SBE said that it is “working to establish separate Program Cost
             Analysis (PCA) codes for each section of HAVA funding.”
             OIG Comments:
             None.


             During Maryland’s State fiscal years 2004 and 2005, the SBE did not
EQUIPMENT    maintain a comprehensive equipment management system or have
MANAGEMENT   written policies and procedures to ensure that property acquired with
CONTROLS     HAVA funds was properly controlled and inventoried. The inventory
             database maintained by SBE did not contain control accounts
             identifying beginning or ending balances and consisted of multiple
             spreadsheets that were not reconciled with the State’s property
             management system. In addition, although we were told that a
             physical inventory of SBE’s property was conducted during 2004 and
             2005, we were not provided adequate documentation to support the
             taking of the inventory or the results of the verification process. As
             such, there is little assurance that the spreadsheet listing of property is
             accurate because it has not been updated based on the results of
             physical inventories.

             According to 41 CFR 105-71.132, Equipment, (b) States should “use,
             manage, and dispose of equipment acquired under a grant by the State
             in accordance with State laws and procedures.” Maryland’s
             Department of General Services Inventory Control Manual Section II
             describes the controls and record keeping requirements for capital
             equipment considered sensitive or non-sensitive. Section II.03 requires
             that a complete physical inventory shall be taken at least once each
             year for sensitive items and every 3 years for non-sensitive items. In
             addition, the Manual requires that records of the taking of the physical
             inventory as well as control accounts (beginning and ending balances)
             be maintained and a final control account reconciliation be certified to
             by the State agency.



                                     7
                 The property management responsibilities for SBE are performed as a
                 collateral duty substantially by one employee who could not ensure
                 that all property acquired with HAVA funds was recorded in the
                 spreadsheets. As such, we believe that improvements in property
                 management are needed to ensure that property acquired with HAVA
                 funds is adequately controlled.

                 Recommendations:
                 We recommend that the EAC require SBE:

                     3. To develop and maintain an equipment management system in
                        accordance with State requirements that will record, identify
                        and track equipment purchased with HAVA funds.

                     4. To develop written policies and procedures that describe, with
                        regard to HAVA equipment, how SBE will comply with the
                        State’s Inventory Control Manual.

                     5. To conduct, during this current year (2007), a physical
                        inventory of HAVA-funded equipment, reconcile the physical
                        inventory to the acquisition records of equipment purchased
                        with HAVA funds, and adjust and update the property
                        management records on the basis of the reconciliation.

                 SBE Response:

                 SBE agreed with the general finding and said it was working to rectify
                 the problem. SBE also said that it believes “the inventory purchased
                 with federal funds is accounted for through the extensive testing of the
                 equipment before and after each election as well as the in-depth chain
                 of custody procedures followed by the State and every local
                 jurisdiction.”

                 OIG Comments:

                 None.

                 The SBE used Section 251 funds of about $5.2 million to pay Diebold
CERTIFICATION    Election Systems, Inc. for various activities such as warehousing and
FOR THE USE OF   transporting voting machines, training election officials and precinct
SECTION 251      workers, acceptance testing, and providing on-site technicians during
FUNDS            the conduct of elections. All of these activities represent allowable
                 uses of Section 251 funds. However, some of them, such as
                 warehousing voting machines may be financed with Section 251 funds
                 only if:




                                        8
       the State certifies to the Commission that—(A) the
       State has implemented the requirements of title III; or
       (B) the amount expended with respect to such other
       activities does not exceed an amount equal to the
       minimum payment amount applicable to the State under
       section 252(c).

Recommendation:
We recommend that the EAC require SBE to:

    6. Submit the required certification for its use of Section 251
       funding.

SBE Response:

SBE said that it “recently [May 15, 2007] certified to EAC that
Maryland has implemented the requirements of Title III.”

OIG Comments:

No further action is required.




                       9
                                                   APPENDIX 1

SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed:

9 The prior single audit report and other reviews related to the State’s
  financial management systems and the HAVA program for the last
  2 years.
9 Policies, procedures and regulations for the Maryland State Board
  of Election’s management and accounting systems as they relate to
  the administration of HAVA programs.
9 Inventory lists of equipment purchased with HAVA funds.
9 Major purchases.
9 Supporting documents maintained in the accounting system for
  payments made with HAVA funds.
9 Certain Maryland laws that impacted the election fund.
9 Appropriations and expenditure reports for State funds used to
  maintain the level of expenses for elections at least equal to the
  amount expended in fiscal year 2000 and to meet the five percent
  matching requirement for section 251 requirements payments.
9 Information regarding source/supporting documents kept for
  maintenance of effort and matching contributions.
We also interviewed appropriate Division employees about the
organization and operation of the HAVA program.

We conducted our review in accordance with Government Auditing
Standards issued by the Comptroller General of the United States. As
such, we included tests and procedures as considered necessary under
the circumstances to evaluate SBE’s controls over the administration
of HAVA payments. Because of inherent limitations, a study and
evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.




                      10
                                     APPENDIX 2

MONETARY IMPACT

                       Questioned
   Description           Costs

Duplicate Costs            250,554




                  11
                                                                           APPENDIX 3

                   SBE Response To Federal Audit of HAVA Funds


                            Questioned Costs
        Since the time of the audit, SBE submitted corrected SF-269 financial reports for
its Section 101 and 251 funds and has cleared up any reporting errors. It is important to
note that, although the $250,554 may have originally been reported twice, the vendor was
not paid twice.


Accounting for Expenditures

        SBE is currently working to establish separate Program Cost Analysis (PCA)
codes for each section of HAVA funding. However, SBE strongly disagrees that the
outlays reported on the SF-269 were not reconciled with expenditures recorded in the
accounting system. Expenses for HAVA and for all agency functions are reconciled
monthly with the State accounting system. This reconciliation is the basis for reporting
SF-269 expenditures. In fact, SBE uses accounting system records for all federal and
State reporting, budget preparation and each fiscal year closeout.



           Equipment Management Controls
        SBE agrees with the general finding that the inventory database does not contain
control accounts and consists of multiple spreadsheets not reconciled with the State’s
property management system. However, SBE disagrees with the effect that property
acquired with HAVA funds have not been adequately controlled to identify if the
equipment is lost, damaged, stolen or no longer needed to support the administration of
Federal elections.

        In fact, the inventory purchased with federal funds is accounted for through the
extensive testing of the equipment before and after each election as well as the in-depth
chain of custody procedures followed by the State and every local jurisdiction.
Reconciling the inventory control account with the State’s property management system
is an administrative function that SBE is currently rectifying. However, the implication
that Maryland cannot account for its equipment because this reconciliation has not taken
place is wrong, as it does not consider the strict property control procedures that ensure
the integrity and security of all voting equipment.

Certification For The Use of Section 251 Funds

       SBE recently certified to the EAC that Maryland has implemented the
requirements of Title III. This certification allows the State to use Section 251 funds for
the general improvement of election administration. With this certification, the audit’s
recommendation has been satisfied.



                                             12
